frPPe.Nrinc_h

*

r

*

Appellate Case: 20-3255

Document: 010110511930

Date Filed: 04/23/2021

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

April 23, 2021
Christopher M. Wolpert
Clerk of Court

SILIAIVAOESE FUIMAONA,
Petitioner - Appellant,
v.

D. HUDSON, Warden, USP Leavenworth,

No. 20-3255
(D.C. No. 5:20-CV-03218-JWL)
(D. Kan.)

Respondent - Appellee.
ORDER AND JUDGMENT*
Before McHUGH, KELLY, and BRISCOE, Circuit Judges.**
Petitioner-Appellant Siliaivaoese Fuimaona, a federal inmate appearing pro se,
appeals from the district court’s judgment on his 28 U.S.C. § 2241 habeas petition,
which sought credit on his federal sentence for time served on a prior Missouri state
criminal sentence. See Fuimaona v. Hudson. No. 20-3218-JWL, 2020 WL 7186148
(D. Kan. Dec. 7, 2020).

* This order and judgment is not binding precedent, except under the doctrines
of law of the case, res judicata, and collateral estoppel. It may be cited, however, for
its persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
** After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument.

Appellate Case: 20-3255

Document: 010110511930

Date Filed: 04/23/2021

Page: 2

In July 2014, Mr. Fuimaona was sentenced in state court for possession of a
controlled substance, burglary, and theft/stealing. R. 51-54. On October 14, 2015,
Mr. Fuimaona was charged with conspiracy to distribute methamphetamine in federal
court. R. 56-63. On October 19, 2015, he was taken into federal custody on a writ
of habeas corpus ad prosequendum and was later returned to Missouri custody on
March 31, 2016. R. 65. Mr. Fuimaona was then transferred to federal custody on
December 19, 2016 and on January 18, 2017, he entered a guilty plea to Count 1 of
the federal indictment. R. 72. Mr. Fuimaona was returned to state custody on
February 7, 2017 until he was released on parole on March 27, 2017. R. 67, 70. He
was returned to federal custody on the same day. On May 25, 2017, petitioner was
sentenced to a federal term of 144 months, concurrent with his state sentence. R. 80.
The Federal Bureau of Prisons (BOP) awarded 65 days of federal credit for prior
custody from February 6, 2014, through February 12, 2014, and from March 28,
2017, through May 24, 2017. R. 81.
Mr. Fuimaona seeks additional credit for time served on his prior Missouri
state criminal sentence. However, a defendant can only be given credit toward a term
of imprisonment if such credit “has not been credited against another sentence.”
18 U.S.C. § 3585(b). A defendant cannot receive presentence credit on a federal
sentence for time that was already credited to a prior state sentence. See United
States v. Wilson. 503 U.S. 329, 334 (1992); Goodface v. U.S. Att’v Gen.. 802
F. App’x 397, 399 (10th Cir. 2020).

2

Appellate Case: 20-3255

Document: 010110511930

Date Filed: 04/23/2021

Page: 3

Mr. Fuimaona’s federal sentence commenced on May 25, 2017, the date he was
sentenced and received into federal custody. See Binford v. United States. 436 F.3d
1252, 1255 (10th Cir. 2006). His prior custody by the state of Missouri was already
credited to his state court conviction. Therefore, the district court was correct that the
BOP properly calculated Mr. Fuimaona’s credit for prior custody.
Mr. Fuimaona also argues that he was entitled under U.S.S.G. § 5G1.3 to
credit on his federal sentence for the time he served in connection with his Missouri
state sentences. Aplt. Br. 4-10. That issue, we conclude, is not one that is properly
raised in a § 2241 habeas petition. Rather, that issue, which effectively challenges
the manner in which his federal sentence was calculated, can be considered only by
the sentencing court by way of a motion to correct sentence filed pursuant to
28 U.S.C. § 2255. i
We therefore AFFIRM the district court and GRANT the motion to proceed in
forma pauperis.
Entered for the Court
Paul J. Kelly, Jr.
Circuit Judge

i

Further, the sentencing transcript indicates that the district court did impose
the federal sentence to run concurrently with the remainder of Mr. Fuimaona’s state
sentence in compliance with U.S.S.G. § 5G1.3. See Sentencing Transcript, United
States v. Fuimaona. No. 4:15-cr-00101-BCW-6, at 20 (ECF No. 333).
3

B

!

»

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
SILIAIVAOESE FUIMAONA,
Petitioner,
v.

CASE NO. 20-3218-JWL

D (FNU) HUDSON, WARDEN,
USP-Leavenworth,
Respondent.

MEMORANDUM AND ORDER
This matter is a petition for habeas corpus filed under 28 U.S.C.
§ 2241. Petitioner, a prisoner at the USP-Leavenworth, proceeds pro
se. He seeks credit on his federal sentence for time served on a prior
Missouri state criminal sentence. For the reasons set forth, the court
concludes petitioner's sentence was calculated properly and that he
is not entitled to relief.
Background
In July 2014, petitioner was sentenced to concurrent terms of five
years in the Circuit Court of Jackson County,

Missouri,

for the

offenses of possession of a controlled substance and burglary and
theft/stealing. He received credit for time served.
On October 14, 2015, an indictment in the United States District
Court for the Western District of Missouri charged petitioner with
conspiracy to distribute methamphetamine. On October 19, 2015, he was
taken into custody on a writ of habeas corpus ad prosequendum. He was
returned to Missouri custody on March 31, 2016.
Petitioner was transferred to federal custody on December 19,
2016. On January 18, 2017, he entered a guilty plea to Count 1 of the

i

I

federal indictment. He was returned to state custody on February 7,
2017, and on March 27, 2017, he was released to parole. He was returned
to federal custody on the same day.
On May 25, 2017, petitioner was sentenced to a federal term of
144 months, concurrent with his state sentences.
The federal Bureau of Prisons (BOP) awarded 65 days of federal
jail credit from February 6, 2014, through February 12, 2014, and from
March 28, 2017, through May 24, 2017.
Standard of Review
A petition under 28 U.S.C. § 2241 "is an attack by a person in
custody upon the legality of that custody, and ... the traditional
function of the writ is to secure release from illegal custody."
McIntosh

v.

U.S

Parole

115

Comm'n,

F. 3d

809,

811

(10th

Cir.

1997) (quoting Preiser v. Rodriguez, 411 U.S. 475, 484 (1973) ) . This
remedy extends to challenges to the computation of an applicant's
sentence. See Atkins v. Garcia, 816 F. Supp. 2d 1108, 1110-13 (D. Colo.
2011). Relief under § 2241 is proper only if the petitioner "is in
custody in violation of the Constitution or laws or treaties of the
United States." 28 U.S.C. § 2241(c)(3).
Analysis
The

BOP

is

responsible

for

the

calculation

of

a

329,

335

(1992)("After a district court sentences a federal offender,

the

Attorney General,

for

prisoner's

sentence.

United States v.

through

the

BOP,

Wilson,

has

the

503' U.S.

federal

responsibility

administering the sentence.")(citing 18 U.S.C. § 3621(a)).
A federal prisoner's sentence begins on the day the prisoner
either is received in custody for transport or arrives voluntarily
at the designated correctional institution. 18 U.S.C. § 3585(a). See

i

Binford v.

United States,

436 F.3d 1252,

1255

(10th Cir.

2006) ("A

federal sentence does not commence until a prisoner is actually
received into federal custody for that purpose.").
Prior custody credit is determined under 18 U.S.C. § 3585(b),
which provides:
(b) Credit for prior custody. - A defendant shall be given
credit toward the service of a term of imprisonment for any
time he has spent in official detention prior to the date
the sentence commences (1) as a result of the offense for which the sentence
was imposed; or
(2) as a result of any other charge for which the
defendant was arrested after the commission of the offense
for which the sentence was imposed;
that has not been credited against another sentence.

i

18 U.S.C. § 3585(b).
Therefore,
sentence,

it

if the BOP applies presentence credit to a state

cannot

apply

that

credit

to

a

concurrent

federal
i

sentence.
Petitioner's federal sentence commenced on May 25, 2017, the day
it was imposed. Because petitioner had been released from Missouri
state prison on March 27, 2017, the BOP gave him credit for the days
he was in federal custody. This period included seven days jail credit
from February 2014 that had not been credited elsewhere and the time
between his release from Missouri custody and the commencement of his
current federal sentence.
The United States Sentencing Guidelines provide that if another
term of imprisonment arose from an offense that is relevant conduct
to the present offense and conviction, the sentence for the present
offense shall be imposed as follows:
(1)

The court shall adjust the sentence for any period of
imprisonment already served on the undischarged term
of imprisonment if the court determines that such

*

period of imprisonment will not be credited to the
federal sentence by the Bureau of Prisons; and
The sentence for the instant offense shall be imposed
to run concurrently to the remainder of the
undischarged term of imprisonment.

(2)

S'

U.S.S.G. § 5G1.3.
This

provision

does

not

allow

any

additional

credit

on

petitioner's federal term because at the time his federal sentence
was imposed, he had been released from prison on the Missouri state
sentence

and,

in

effect,

there

was

no

"undischarged

term

of

imprisonment". See Isles v. Chester, No. 08-3028-RDR, 2009 WL 1010553,
at *5 (D. Kan. Apr. 15, 2009) ("Concurrent sentences normally mean that
the sentence being imposed will run concurrently with the undischarged
portion

of

a

previously

Whitfield, 718 F.2d 441,

imposed
444

sentence.")

(D.C.Cir.1988)

"[A]

(citing Shelvy

v.

federal sentence

made concurrent with a sentence already being served does not operate
in a

'fully concurrent' manner.

Rather,

the second sentence runs

together with the remainder of the one then being served.")).
Finally, the BOP has a mechanism that allows a prisoner to request
the designation of a state institution for service of a concurrent
federal sentence. Under BOP Program Statement 5160.05, the BOP may
designate a state institution for concurrent service of a federal
sentence, and a prisoner also "may request a nunc pro tunc designation"
of the state institution as the place of confinement. However, because
petitioner was released from his state sentence before his federal
sentence was imposed, the BOP could not make such a designation.
Conclusion

i

For the reasons set forth, the Court concludes the BOP properly
calculated petitioner's sentence and he is not entitled to relief.
IT IS, THEREFORE, BY THE COURT ORDERED the petition is dismissed
and all relief is denied.
IT IS SO ORDERED.
DATED:

This 7th day of December, 2020, at Kansas City, Kansas.

4

S/ John W. Lung-strum
JOHN W. LUNGSTRUM
U.S. Senior District Judge

i

i

